CERTIFICATE OF COMPLIANCE
Nos. 19-840, 19-841
In the Supreme Court of the United States
STATE OF CALIFORNIA, ET AL.

v.

Petitioners,

STATE OF TEXAS, ET AL.

Respondents.

UNITED STATES HOUSE OF REPRESENTATIVES

v.

Petitioner,

STATE OF TEXAS, ET AL.

Respondents.

As required by Supreme Court Rule 33.l(h), I, Jeremy Cooper Doerre, Counsel
of Record for Amicus Curiae Jeremy C. Doerre and a member of the Bar of this Court,
do hereby certify that the Brief of Amicus Curiae Jeremy C. Doerre in Support of
Petitioners contains 2,320 words, excluding the parts of the document exempted by
Supreme Court Rule 33. l(d), and complies with the word limitations set out in Rule
33. l(g).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 17, 2020

b.
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

